IN THE SUPREME COURT OF THE UNITED STATES

No.

KYLE EVAN PETERSON,
Petitioner,
-v-
UNITED STATES OF AMERICA,

Respondent.

MOTION FOR LEAVE TO PROCEED
IN FORMA PAUPERIS

Pursuant to 18 U.S.C. ยง 3006A(d)(7) and S. Ct. R. 39, petitioner, Kyle Evan
Peterson, asks leave to file the attached Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit without pre-payment of fees or costs
and to proceed in forma pauperis. Petitioner was represented by counsel appointed

pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal to the Ninth Circuit.

SS submitted,

Dated: September 15, 2021 DEVIN BURSTEIN
Warren & Burstein
501 W. Broadway, Ste. 240
San Diego, California 92101
Telephone: (619) 234-4433
Attorneys for Petitioner
